                                                 EVALUATION




                OFFICE OF
                INSPECTOR GENERAL
                U.S.DEPARTMENT OF THE INTERIOR




 GUAM PUBLIC SAFETY




Report No.: HI-EV-OIA-0003-20 12                 November 2012
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                              NOV 2'0 2012
Memorandum

To:            Anthony M. Babauta
               Assistant Secretary for Insular Areas

From:          Mary L. Kendall
               Deputy Inspector Gene

Subject:       Final Evaluation Report- Guam Public Safety
               Report No. HI-EV-OIA-0003-2012

        This report contains the results of our evaluation of Guam Public Safety. We reviewed
Guam's Police Department (GPD), Fire Department (GFD), and Homeland Security (GHS) to
determine their ability to meet the current public safety needs of Guam's citizens and prepare for
the increase in population resulting from the military buildup.

        We determined that despite efforts made by the public safety agencies, GFD and GPD are
unable to meet the current needs of Guam and will be unable to meet the needs of the anticipated
increase in population. Unless shortcomings in staffing, infrastructure, vehicles, maintenance,
and training are addressed, the citizens of Guam will continue to be at risk from natural and man-
made disasters, as well as the possible increase in crime associated with population growth.
GHS, which is 100 percent Federally funded, meets Guam's current needs, but as Federal
funding decreases, it may be unable to maintain its current level of service without local funding.

        We offered three recommendations concerning which we requested a response within 30
working days. GovGuam responded to the draft report on August 26, 2012 (appendix 4). Based
on the response, we consider all three recommendations unresolved. We request specific
information from GovGuam in Appendix 5.

        Specifically, in response to our recommendations to establish a methodology to develop a
service delivery matrix that would include needs, resources, and citizen's service expectations
for GPD and GFD (Recommendation 1) and establish a continuous review process to determine
if the goals of the service delivery matrix are being achieved (Recommendation 2), Governor
Calvo responded that they are working toward enacting a service delivery matrix and continuous
review process. Governor Calvo cited Executive Order 2012-10, "Relative to Creating the
Governor's Performance Based Management System Executive Steering Committee," which
addresses the implementation of performance-based management systems with the goal of
improving customer satisfaction in all government services. The Guam Department of
Administration leads eight agencies in the pilot program. While there currently are no public
safety agencies participating, the Administration plans to implement performance-based
budgeting govemmentwide. To consider these recommendations resolved, we would like to see



                               Office of Inspector General I Washington, DC
additional information on how the Executive Order 2012-10 will specifically address the
recommendations to develop a service delivery matrix and establish a continuous review process
as well as target dates for completion and a responsible official.

        Regarding our recommendation to determine a method to provide public-safety funding
from local sources of revenue (Recommendation 3), Governor Calvo responded that
governmentwide spending cuts are planned to take effect before the next fiscal year and the
funds saved will be used to improve operations. In addition, the Administration facilitated GFD’s
implementation of a new ambulance billing system, enabling GFD to properly track and collect
revenue for emergency medical services. We are concerned, however, that the additional funds
from the ambulance billing and the planned budget cuts may not provide sufficient funding to
provide the level of service required or desired. To consider this recommendation resolved, we
would like to see additional information on the level of funding that will be directed to the public
safety agencies to improve operations.

        As the U.S. Department of the Interior’s conduit for coordinating Federal policy and
activities with insular area territories and governments, the Office of Insular Affairs (OIA)
monitors and tracks Guam’s governance efforts, which would include resolution and
implementation of the recommendations contained in the attached report. Accordingly, we
request that OIA track GovGuam’s progress in implementing and resolving these
recommendations. We recommend, therefore, that OIA:

       1. Ensure that GovGuam provides documentation that demonstrates implementation of
          the much needed actions to meet the public safety needs of Guam’s citizens.

        Please provide us with your written response to this report within 30 days. The OIA
response should provide information on actions to address Governor Calvo’s response to our
report outlined in Appendix 4 and Appendix 5. Please address your response to:

               Ms. Kimberly Elmore
               Assistant Inspector General for Audits, Inspections, and Evaluations
               U.S. Department of the Interior Office of Inspector General
               Mail Stop 4428
               1849 C St., NW.
               Washington, DC 20240

        If you have any questions regarding this memorandum or the subject report, please do not
hesitate to contact me at 202-208-5745.


Attachment




                                                 2
                                                EVALUATION

                                                 Attachment



                OFFICE OF
                INSPECTOR GENERAL
                U.S.DEPARTMENT OFTHE INTERIOR




 GUAM PUBLIC SAFETY




Report No.: HI-EV-GUA-0002-20 II                November 2012
              OFFICE OF                                                                 Attachment
              INSPECTOR GENERAL
              U.S. DEPARTMENT OF THE INTERIOR


                                                                              NOV 2 0 2012
The Honorable Eddie Baza Calvo
Governor of Guam
Ricardo J. Bordallo Governor' s Complex
Adelup, Guam 9691 0

Subject:       Final Evaluation Report- Guam Public Safety
               Report No. HI-EV-GUA-0002-2011

Dear Governor Calvo:

        This report contains the results of our evaluation of Guam Public Safety. We reviewed
the ability of Guam's Police Department (GPD), Fire Department (GFD), and Homeland
Security (GHS) to meet the current public safety needs of Guam' s citizens and prepare for the
increase in population resulting from the military buildup. We determined that despite efforts
made by the public safety agencies, GFD and GPD are unable to meet the current needs of Guam
and will be unable to meet the needs of the anticipated increase in population. Unless
shortcomings in staffing, infrastructure, vehicles, maintenance, and training are addressed, the
citizens of Guam will continue to be at risk. GHS, which is 100 percent Federally funded, meets
Guam's current needs, but as Federal funding decreases, it may be unable to maintain its current
level of service without local funding.

        We offered three recommendations to which we requested your response. We appreciate
your response to the draft report (appendix 4) on August 26, 2012. Based on your response, we
consider the three recommendations unresolved (appendix 5). As the U.S. Department of the
Interior's conduit for coordinating Federal policy and activities with insular area territories and
government, the Office oflnsular Affairs (OIA) monitors and tracks Guam' s governance efforts,
which would include resolution and implementation of the recommendations contained in the
attached report. Accordingly, we have requested that OIA track Guam's progress in
implementing and resolving these recommendations. The legislation creating the Office of
Inspector General requires that we report to Congress semiannually on all audit reports issued,
actions taken to implement our recommendations, and recommendations that have not been
implemented.

      If you have any questions concerning this letter or the subject report, please contact Mr.
Michael P. Colombo, Regional Manager, at 916-978-5653 .

                                                Sincerely,



                                                Mary L. K ndall
                                                Deputy Inspector General


                               Office of Inspector General I Washington, DC
                                                                                                           Attachment
Table of Contents

Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2
      Service Expectations and Personnel ................................................................ 2
      Equipment ........................................................................................................ 3
      Infrastructure ................................................................................................... 3
      Budget .............................................................................................................. 3
      Comparable Operations ................................................................................... 3

Findings................................................................................................................... 5
   Personnel Challenges .......................................................................................... 5
      Guam Police Department................................................................................. 5
      Guam Fire Department .................................................................................... 6
      Guam Homeland Security ............................................................................... 6
   Vehicle Shortages and Antiquated Equipment.................................................... 7
      Guam Police Department................................................................................. 7
      Guam Fire Department .................................................................................... 8
      Guam Homeland Security ............................................................................... 9
   Infrastructure Weaknesses................................................................................... 9
      Guam Police Department................................................................................. 9
      Guam Fire Department .................................................................................... 9
   Training ............................................................................................................. 10
      Guam Police Department............................................................................... 10
      Guam Fire Department .................................................................................. 10
      Guam Homeland Security ............................................................................. 10
   Planning, Budget, and Funding Shortfalls ........................................................ 11
      Guam Police Department............................................................................... 11
      Guam Fire Department .................................................................................. 11
                                                                                           Attachment
     Guam Homeland Security ............................................................................. 11

Conclusion and Recommendations ....................................................................... 13
  Conclusion......................................................................................................... 13
  Recommendation Summary .............................................................................. 13

Appendix 1: Scope and Methodology................................................................... 16
  Scope ................................................................................................................. 16
  Methodology ..................................................................................................... 16

Appendix 2: Sites Visited or Contacted ................................................................ 17

Appendix 3: Prior Office of Inspector General Report ......................................... 18

Appendix 4: Governor of Guam Response ........................................................... 19

Appendix 5: Status of Recommendations ............................................................. 24
                                                                       Attachment
Results in Brief
The protection from and prevention of events endangering the public’s safety,
such as crime and natural and manmade disasters, is a vital function of any
government. Guam faces increased challenges in meeting the current public safety
needs of the citizens, as well as the needs associated with the impending military
buildup. We examined the ability of Guam’s Police Department (GPD), Fire
Department (GFD), and Homeland Security (GHS) to meet the safety and
response needs of Guam’s citizens and prepare for the increase in population.

GFD and GPD cannot meet the current public safety needs of Guam and will not
meet the needs of the anticipated increase in population from the military buildup.
Unless the Government of Guam (GovGuam) addresses shortcomings in staffing,
infrastructure, vehicles, maintenance, and training, the citizens of Guam will
continue to be at risk from events that could endanger public safety. While GHS,
which is 100 percent federally funded, is able to meet Guam’s current needs, as
Federal funds decrease, it may be unable to maintain its current level of service
without local funding.

Many of the weaknesses we found result from inadequate planning and funding
from GovGuam. Specifically, GovGuam has been reactive in funding the
agencies’ needs, such as staffing, vehicles, and maintenance. It also has heavily
relied on Federal funding for many of the agencies’ operational needs. To better
address public safety concerns, GPD, GFD, and GHS should compare the current
level of service to the desired level of service and reconcile any differences
through planning, budgeting, and monitoring activities.




                                                                                  1
                                                                       Attachment
Introduction
Objective
We examined the extent that the Guam Police Department (GPD), Guam Fire
Department (GFD), and Guam Homeland Security (GHS) are able to meet the
safety needs of the citizens of Guam and prepare for the increase in population
due to military buildup. We reviewed existing programs, infrastructure,
equipment, emergency preparedness, resources, and training.

Background
GPD, GFD, and GHS safeguard those who live, work, and visit Guam. Each
agency’s mission statement reflects its purpose. For example, GPD’s mission is to
protect life and property, prevent crime, enforce the laws, and maintain order.
GFD’s mission statement is to provide quality emergency and non-emergency fire
and emergency medical services. GHS’s mission is to coordinate and facilitate all
GovGuam, military, and Federal liaison response agencies and their resources in
mitigating, preparing, responding, and recovering from any and all types of
emergencies to protect the lives, environment, and property of Guam.

In 2011, Guam’s population, including the military, was approximately 180,000.
Due to the potential military buildup, Guam’s population may increase with the
relocation of Marines and their dependents and support services to the island.
Previous planning efforts, based on the relocation of 8,600 Marines, projected an
increase of 80,000 people in Guam. The projected increase of 80,000 people
includes not only the Marines, but their families, construction workers, and other
jobs that arise with a population increase. The exact impact on Guam’s population
is unknown. Recent developments, however, indicate that the number of
relocating troops may be closer to 4,500. Population growth and the associated
shift in demographics, traffic patterns, and land use (e.g., new commercial
development, and higher-density housing) could pose significant challenges for
law enforcement and emergency preparedness.

Service Expectations and Personnel
GPD has 372 employees—304 sworn officers, 6 detention officers and 62 civilian
personnel. Of the 304 sworn officers, 139 are patrol officers. According to Guam
Public law, however, GPD should have approximately 464 patrol officers
covering the precincts.

GFD employs 261 uniformed firefighters and 28 civilian personnel, totaling 289.
The National Fire Protection Association requires that GFD have enough
personnel and trucks to meet a 4-minute response time for first responders and an
8-minute response time to 90 percent of the incidents for advanced life support
equipment arrival or full alarm response.




                                                                                  2
                                                                     Attachment
GHS has no requirement to hire a certain number of employees. It currently has
21 employees, 5 of which are detailed from GPD and GFD.

Equipment
GPD operates 50 marked patrol vehicles, consisting of 31 patrol cars and 19
motorcycles. These patrol vehicles are subject to use 24 hours per day and 7 days
a week.

GFD has 1 pumper truck at each of its 12 fire stations. It has seven ambulances—
four of which it leases on a 1-year term. In addition, GFD is in the process of
procuring three more ambulances using U.S. Department of the Interior, Office of
Insular Affairs funds.

GHS operates a mobile communications vehicle, which is equipped with $1
million worth of communication technology equipment that GHS has on standby
for emergencies and uses for outreach, training, and local events. It also owns four
4 x 4 vehicles for responses to emergencies and disasters, and two vans and two
trucks for day-to-day operations.

Infrastructure
GPD has four precincts, a building used for police headquarters, and a Forensic
Crime Lab. GPD moved into the police headquarters as a temporary location in
December 2011. GFD occupies 12 fire stations, with its headquarters located in a
former storage facility. GHS is located primarily underground in Agana Heights.

Budget
In fiscal year (FY) 2011, GPD received $23 million in funding plus
approximately $6 million in available active Federal grants. GPD distributes
about 93 percent of its general fund budget to personnel, including salary,
benefits, and overtime. In FY 2011, GFD received $33.6 million in funding plus
approximately $2.2 million in available active Federal grants. GFD distributes
about 96 percent of its general fund budget to payroll. GHS receives 100 percent
of its budget in Federal funding.

Comparable Operations
We compared GPD and GFD operations to operations in Maui County, HI,
because the islands share similar population size, similar geographic limitations,
and an economy based on tourism. Maui County has a population of
approximately 155,000, which is less than Guam, and includes the islands of
Maui, Molokai, and Lanai. Despite a population difference of about 25,000, Maui
County has more stations/precincts, uniformed/sworn personnel, and patrol
vehicles or fire trucks than the island of Guam (see figure 1).




                                                                                   3
                                                        Attachment
 Maui County’s Fire and Police Departments versus Guam’s Fire and
                        Police Departments

                          Maui Fire Guam Fire Maui Police                 Guam Police
                         Department Department Department                 Department
 Population                155,000         180,000          155,000          180,000
 Stations/ Precincts          14               12               6                4
 Substations/
                               0               0                9                6
 Kobans
 Total Personnel              312             289             462              372
 Uniformed/Sworn
                              299             261             344              304
 Personnel
 Emergency
 Apparatus (Fire              36               12             N/A              N/A
 Trucks)
 Ambulances                    0               7              N/A              N/A
 Patrol Vehicles             N/A              N/A             119               50
 Relief Vehicles
                              Yes             No              Yes               No
 (Y/N)

Figure 1. Comparison of Maui’s police and fire departments to Guam’s police and fire
departments.




                                                                                        4
                                                                            Attachment
Findings
The Government of Guam (GovGuam) has a public safety program, but it is not
well planned or funded. GPD and GFD are unable to meet the needs of the
citizens of Guam or prepare for any increase in population. GHS currently is
better prepared to meet the needs of Guam’s citizens but receives 100 percent of
its budget from Federal funds with no plan to cover the losses of a decreasing
Federal revenue stream.

Further, Guam public safety entities do not have service-delivery metrics in place
to compare service delivery to expectations. Without knowing what the needs,
resources, and the level of citizen service expectations are, it is difficult to plan or
budget for meeting those expectations.

Personnel Challenges
While public law mandates Guam to meet a minimum amount of patrol officers
for each GPD precinct, and GFD strives to follow U.S. National standards for
staffing and equipment, the police and fire departments are unable to meet
personnel standards. In addition, Guam has not determined if the current laws and
standards that the public safety entities attempt to follow correspond to the level
of service Guam’s citizens desire.

Guam Police Department
As of March 2012, GPD has 304 sworn police officers, which according to GPD
leadership, is approximately 60 officers short from its current staffing needs. In
addition, 53 of the sworn police officers are deployed to military duties. To
compare, Maui County, HI Police Department, which serves a population 25,000
less than Guam, has 344 sworn personnel and can employ up to 375.

Of the 304 sworn GPD officers, 139 patrol officers cover 4 precincts. Each
precinct has three to five officers per shift. According to Guam Public Law, each
village must have a minimum of two police officers capable of patrol and
responding to calls at all times, and one additional officer is required for each
additional 2,000 residents for each shift. Therefore, by law GPD should have 464
patrol officers to cover the GPD precincts.

In addition, each precinct has approximately the same number of officers
regardless of the population. For instance, the Dededo precinct has only four
officers on duty per shift. Dededo, however, has the highest population, at
approximately 74,000—25,000 higher than the next highest populated precinct.
The precinct should have 171 officers but has only 37.




                                                                                       5
                                                                        Attachment
The increase in population following the buildup will exacerbate the staffing
shortfall. According to “The Final Environmental Impact Statement” 1 (EIS)
prepared by the U.S. Navy, GPD needs to hire an additional 117 officers for the
buildup based on the projection of the number of U.S. Marines arriving. The
estimate does not account for the addition of needed civilian support staff. GPD
leadership estimates they need to hire approximately 200 officers to meet both the
current needs and the needs of the buildup.

Guam Fire Department
GFD does not have enough staff to meet Guam’s current needs. GFD has 289
employees, 261 of which are uniformed firefighters. According to the Chief, the
fire department is short about 100 firefighters. Comparatively, Maui’s fire
department has 312 employees, not including personnel for ambulance service. Of
the 312 employees, 299 are uniformed firefighters.

The National Fire Protection Association requires that GFD have enough
personnel and trucks to meet a 4-minute response time for first responders and an
8-minute response time to 90 percent of the incidents for advanced life support 2
equipment arrival or full alarm response. 3 In addition, the Association
recommends five to six on-duty personnel per engine company. 4 According to the
EIS, despite meeting response time requirements, GFD does not comply on a
consistent basis with the recommended staffing ratio per engine company due to
sick leave, vacations, and deployment.

GFD has worked toward hiring an additional 30 firefighters. GFD received money
in FY 2011 to hire additional staff but could not complete the hiring process by
the end of the fiscal year. GFD is attempting to hire the additional staff in FY
2012.

GFD also has not had stable leadership. Four acting chiefs came before the
current Chief of the current administration, which began in January 2011.
Unstable leadership hinders planning and execution of hiring or procuring needed
items.

Guam Homeland Security
GHS currently has 21 employees, 5 of which are detailed from GPD and GFD.
GHS has three vacant positions it cannot fill because GovGuam instituted a hiring
freeze. GovGuam, however, does not fund GHS. GHS leadership believes the
hiring freeze should not apply to their agency. Because GHS cannot hire new

1
  The final Environmental Impact Statement created by the U.S. Navy and released in July 2010 was created
to assess potential environmental effects associated with the proposed military activities.
2
  Advanced life support is emergency medical treatment beyond basic life support that provides for advanced
airway management, intubation, advanced cardiac monitoring, defibrillation, establishment and maintenance
of intravenous access, and drug therapy.
3
  A full alarm response is the personnel, equipment, and resources ordinarily dispatched upon notification of
a structural fire.
4
  An engine company is a group of firefighters assigned to one fire engine to perform assigned tasks.


                                                                                                            6
                                                                       Attachment
employees to fill the vacant positions, they have borrowed staff from already
understaffed agencies.

Vehicle Shortages and Antiquated Equipment
Guam consistently has issues with budgeting for vehicles. GPD and GFD cannot
provide the level of service established in their laws and standards in part due to
vehicle shortages and antiquated equipment. Instead of establishing metrics for
expectations of service delivery and maintaining the resources necessary to meet
those service expectations, GovGuam has waited until conditions are dire before
acquiring needed resources.

Guam Police Department
GPD does not have enough vehicles to fully equip all shifts and have vehicles in
reserve for downtime. In addition, the two-way radio communications system,
although currently useable, will soon become obsolete and need replacement.

As of April 18, 2011, GPD owned 50 patrol vehicles, which consists of 19
motorcycles and 31 patrol cars. Officers use the patrol cars 24 hours per day and 7
days a week. An internally generated needs assessment by GPD states that it will
need 50 more patrol vehicles and 54 more motorcycles to address the current
shortage and in anticipation of the buildup needs.

GPD does not have a reserve fleet to provide the vehicles breaks to extend their
useful life. Other police departments, such as the Maui Police Department,
commonly have a reserve fleet. GPD vehicles easily reach the 10,000-mile mark
within 3 months, at which time the vehicle warranty ceases, leaving GPD to fund
any repair and maintenance costs. According to a GPD official, GovGuam has
tried to budget and reserve funds for maintenance, but GPD has not received such
funding.

GPD’s vehicle shortage is due, in part, to the weaknesses in its vehicle
maintenance program. GPD does not keep an inventory or supply of vehicle
component parts, and sometimes vehicles sit dormant for long periods while
waiting for parts or funding for repairs. GPD fleet maintenance practices include
taking parts from a retired vehicle and using it in another. This serves as only a
temporary fix and using rundown parts increases the chances that the vehicle will
breakdown. In addition, we were told that because it takes too long to fix vehicles
while waiting for funding, officers have resorted to using their personal funds to
fix vehicles.

Poor maintenance could put officers at risk. For instance, two vehicles in the
Tamuning Precinct have defective vehicle sirens. GPD does not have money to
replace them, so police officers drive these vehicles without audible sirens.

In addition, GPD’s wireless communication radios are antiquated, and by 2014,
replacement parts may not be readily available if needed. GPD estimates the


                                                                                      7
                                                                        Attachment
radios would cost about $12 million to replace. Presently, it costs $400,000 per
year to operate the radio system. GovGuam also never created a cost-share
agreement for the communications towers. For example, GTA Teleguam, a
telecommunications company, uses the towers, which was not a problem when it
was a GovGuam agency; however, GTA is now a for-profit entity and GPD does
not currently collect tower-use charges that could be a potential revenue source.

Guam Fire Department
GFD does not have enough ambulances to service Guam and does not have any
reserve vehicles in its fleet. In addition, GFD does not have a viable maintenance
program to keep up with needed repairs.

GFD owns 15 ambulances, and of those, only 3 are in service. There is at least
one documented occasion in which GFD had only one ambulance to service the
entire island. Some ambulances have been out of service for more than 1 year.
GFD leased four additional ambulances on a 1-year term and is in the process of
purchasing three more vehicles using funds from the U.S. Department of the
Interior, Office of Insular Affairs (OIA). GovGuam has rarely purchased vehicles
for GFD and has mainly relied on Federal funding or vehicle donations from other
Federal agencies such as the U.S. Department of Agriculture.

In 2005, Guam Office of Public Accountability (OPA) released a report regarding
the emergency acquisition of three fire trucks. OPA stated: “Unless a consistent
funding source is provided to GFD for the purchase of necessary emergency
vehicles and equipment, GFD will continue to resort to emergency requests for
these purchases.” The situation has not improved. For instance, in September
2011, a teenager went into labor at her home, the first ambulance broke down on
the way to the house, and the second ambulance took over an hour to get there;
the baby died on the way to the hospital. GFD had to again resort to emergency
funding to procure the four leased ambulances following the tragic death of the
infant.

GFD owns 12 fire trucks, but none have ladders with high-rise capabilities to
service hotels and other high-rise structures on the island. In addition, GFD has no
reserve trucks in its fleet. Having no reserve trucks will require active trucks to be
taken out of service for maintenance, thus reducing the number of trucks
available.

GFD employs two mechanics but only one mechanic is available to perform
major work. As a result, GFD has a large maintenance backlog. In addition, GFD
cannot sustain a viable maintenance program due to the shortage of spare
vehicles. Further, GFD does not have an accurate, integrated system to track
vehicle maintenance. GFD plans to implement a vehicle maintenance plan by
2013. Any maintenance plan, however, will depend on funding availability.
While writing this report, we received updated information that two technical
assistance grants from the U.S. Department of the Interior, OIA, were awarded for



                                                                                     8
                                                                         Attachment
the purchase of six ambulances: three arrived on Guam on July 19, 2012, and the
other three are expected to arrive in October 2012. In addition to the six
ambulances that OIA funded, GFD received $1.1 million in technical assistance
grants for the purchase of a fire truck with a high-rise ladder, two medium rescue
vehicles, and a single rigid inflatable rescue boat.

Guam Homeland Security
Guam does not have an early warning system for a tsunami. GHS purchased an
early warning system in 2006, but has not installed it due to litigation and
protests. 5 The current operational readiness of the system is doubtful because of
how long it has been stored. In addition, funding to install the system may no
longer be available.

Infrastructure Weaknesses
Guam does not have a well-planned public safety infrastructure. The absence of
proper infrastructure may affect GPD’s and GFD’s ability to conduct operations
and meet citizen needs.

Guam Police Department
GPD does not have a permanent headquarters location. A new central police
headquarters would enable a centralized integrated operations presence to provide
critical services to the people of Guam. GPD’s current headquarters is at a
temporary location. Consequently, not all necessary headquarters personnel or
operations are located in the same vicinity.

Although Guam law requires one police station in each village, there are only 4
precincts and 6 kobans, or substations, that cover the 19 official villages. Two of
the precincts, Dededo and Agat, are new and used funding from the U.S.
Department of Housing and Urban Development (HUD). The Hagatna and
Tumon precincts are aging, have significant maintenance problems, and are not
equipped with appropriate safety features.

Guam Fire Department
GFD does not have a permanent headquarters location and is currently located in
a former storage facility, displacing equipment previously stored there. The
displaced equipment is stored at various firehouses. Some fire stations keep
equipment in storage containers, but we also saw that some store equipment
wherever possible, such as bathrooms. This practice creates problems with
accountability and accessibility.




5
 The litigation and protests were due to a vendor that appealed the sole source bid on the early warning
system.


                                                                                                           9
                                                                         Attachment
Training
GPD and GFD do not have master training plans. Public safety entities’ staff
members need proper training to maintain their skills, stay up-to-date with current
issues, and meet the citizens’ public safety needs.

Guam Police Department
GPD requires new police officers to attend the police academy. It takes 6 to 8
months to train a police officer. GPD does not have a training plan. Police
officers, however, must attend Incident Command System (ICS) / National
Incident Management System (NIMS) training offered by GHS. Other training
includes annual weapons qualification training, use of force, pepper spray, and
batons. Some GPD precincts offer sporadic training depending on officer
strengths and weaknesses and available funding. Training is difficult for GPD
because of understaffing, so they have to pay officers overtime when someone is
in training. To remedy this, GPD tries to bring trainers to the precinct so officers
do not have to leave.

Guam Fire Department
GFD requires all new employees to go through approximately 6 months of
training. Employees enroll in the Fire Academy at Guam Community College,
where they receive 3 months of in-classroom training. They then receive 3 months
of on-the-job training. Employees must also pass the EMT basic certification
course and must receive 48 hours of continuing education every 2 years in EMT
basic certification skills.

While GFD does not have an annual training plan for all firefighters, the firehouse
captains are responsible for ensuring that firefighters maintain their skills and
receive the necessary in-house training.

Guam Homeland Security
GHS’s mission is to have more training in all hazards preparedness for Guam and
all stakeholders. The U.S. Department of Homeland Security funds the training.
GHS must perform four exercises each year to continue to receive Federal
Department of Homeland Security grants under the Homeland Security Grant
Program.

 Recommendation

        1. Establish a methodology to develop a service delivery matrix which
           would include needs, resources, and citizen’s service expectations
           for GPD and GFD.




                                                                                   10
                                                                        Attachment
Planning, Budget, and Funding Shortfalls
In the past, Guam’s public safety entities have created strategic plans. These
entities, however, have not updated the plans or tracked progress. Guam’s public
safety entities have also conducted needs assessments to identify necessary
resources associated with the military buildup. These assessments, however, may
not be sufficient to identify progress, funding, or achievability of the projects.

Guam currently has no public safety master plan; it is in the process of creating
such a plan, which was originally slated for completion in November 2011. The
plan is still in the development process.

GovGuam also has budget and funding shortages. Prior reviews conducted by the
Office of Inspector General have identified weaknesses in Guam’s tax collection
process. A November 2008 evaluation of Guam’s tax collection activities
estimated that at least $23.5 million of tax revenue is lost every year because of
inefficiencies in the tax collection process. While we did not assess the progress
of GovGuam’s tax collection activities, we believe GovGuam could use these lost
revenues to help address the needs identified with its public safety entities.
Instead, it has become common practice in Guam to rely on Federal grants for
improvements and any emergencies. Half of the GPD precincts and GFD fire
stations were built using Federal funding. In addition, Federal agencies either
donated or funded the purchase of many of the vehicles in GPD’s and GFD’s
fleet. GHS receives 100 percent of its budget from Federal funds.

Guam Police Department
Despite increases in population and expected increases from the military buildup,
GPD has not had any significant increase in its operational budget. Its budget
decreased in both FYs 2011 and 2012 from the FY 2010 level. GPD has
conducted several needs assessments and plans but has been unable to follow
through due to the inability to secure funds. Of the four police stations GPD
currently has, two were built using HUD and the Community Development Block
Grants funds because they are located in low-income housing neighborhoods.

Guam Fire Department
GFD has worked to raise revenues beyond its budget, but has been unable to use
these funds to its benefit. At the beginning of 2012, GFD reinstated an ambulance
emergency transport fee of $195 and a non-emergency transport fee of $95. This
fee has been in place for since 2007, but GFD just recently started enforcing it.
The revenue generated from the ambulance transports, however, goes into
GovGuam’s general fund and not directly to GFD.

Guam Homeland Security
GHS receives 100 percent of its budget from Federal funds. In FY 2012, they
anticipate a 54 percent decrease in funding due to grant fund reductions. Without
the addition of local funds, GHS will be unable to maintain the level of service it
currently provides.


                                                                                    11
                                                                 Attachment
Recommendations

     2. Establish a continuous review process to determine if the goals of
        the service delivery matrix are being achieved.

     3. Determine a method to provide public safety funding from local
        sources of revenue.




                                                                             12
                                                                       Attachment
Conclusion and Recommendations
Conclusion
Guam’s public safety entities do not currently meet the needs of Guam’s citizens.
GPD does not meet mandates regarding the number of police officers and police
stations in each village, and GFD does not meet U.S. national fire standards. Both
GPD and GFD cannot fully achieve their missions due to vehicle shortage and
delayed maintenance. Without meeting established standards of service delivery
for all public service functions, Guam’s citizens may be at risk.

It may be necessary for Guam to reexamine the level of service the citizenry of
Guam desires. Once the level of service is determined, it is imperative that
GovGuam works to meet those expectations on a continual basis and provide the
necessary resources to do so.

Guam does not have sufficient funding to provide the level of service required by
Guam laws or Federal standards. GPD, GFD, and GHS identified areas of need
regarding the military buildup but funding has not been identified to fulfill those
needs. Instead of relying on Federal funding, which has become common practice
in Guam, GovGuam needs to find other ways to secure funds for public safety
entities such as improving the tax collection process and/or adjusting GovGuam’s
tax and fee revenue structure.

Recommendation Summary
       1. Establish a methodology to develop a service delivery matrix which
          would include needs, resources, and citizen’s service expectations for
          GPD and GFD.

       GovGuam Response: GovGuam responded that they are working toward
       enacting a service delivery matrix and continuous review process.
       Executive Order 2012-10, “Relative to Creating the Governor’s
       Performance Based Management System Executive Steering Committee”
       addresses the implementation of performance-based management systems,
       with the goal of improving customer satisfaction in all government
       services. The Guam Department of Administration leads eight agencies in
       the pilot program. While there currently are no public safety agencies
       participating, the Administration plans to implement performance-based
       budgeting governmentwide.

       Office of Inspector General Reply: We commend GovGuam for creating a
       performance-based management system pilot program to improve
       customer satisfaction in all areas. We request more information on how
       Executive Order 2012-10 will specifically address the recommendation to
       develop a service delivery matrix. We consider this recommendation


                                                                                 13
                                                            Attachment
unresolved and are requesting that OIA track GovGuam’s progress in
resolving this recommendation. We request that Guam provide OIA with
additional information, which we identify in Appendix 5.

2. Establish a continuous review process to determine if the goals of the
   service delivery matrix are being achieved.

GovGuam Response: GovGuam responded that they are working toward
enacting a service delivery matrix and continuous review process.
Executive Order 2012-10, “Relative to Creating the Governor’s
Performance Based Management System Executive Steering Committee,”
addresses the implementation of performance-based management systems
with the goal of improving customer satisfaction in all government
services. The Guam Department of Administration leads eight agencies in
the pilot program. While there currently are no public safety agencies
participating, the Administration plans to implement performance-based
budgeting governmentwide.

Office of Inspector General Reply: We commend GovGuam for creating a
performance-based management system pilot program to improve
customer satisfaction in all areas. We request more information on how
the Executive Order 2012-10 will specifically address the recommendation
to establish a continuous review process. We consider this
recommendation unresolved and are requesting that OIA track
GovGuam’s progress in resolving this recommendation. We request that
Guam provide OIA with additional information, which we identify in
Appendix 5.

3. Determine a method to provide public safety funding from local
   sources of revenue.

GovGuam Response: GovGuam responded that they agree with the Office
of Inspector General; it is time to reexamine the level of service the
citizenry of Guam desires. Governmentwide spending cuts are planned to
take effect before the next fiscal year with funds saved to be used to
improve operations. In addition, the Administration facilitated GFD’s
implementation of a new ambulance billing system, enabling GFD to
properly track and collect revenue for emergency medical services. GFD
hopes the new local funds help toward more training, equipment, and staff
for the department by efficiently collecting this new revenue.

Office of Inspector General Reply: We commend Guam for implementing
the new ambulance billing system as well as planning to use funds from
the Governmentwide spending cuts to improve operations. We are
concerned, however, that the additional funds from the ambulance billing
and the planned budget cuts may not provide sufficient funding to provide



                                                                        14
                                                                Attachment
the level of service required or desired. We consider this recommendation
unresolved and are requesting that OIA track GovGuam’s progress in
resolving this recommendation. We request that Guam provide OIA with
additional information, which we identify in Appendix 5.




                                                                       15
                                                                      Attachment
Appendix 1: Scope and Methodology
Scope
We performed our evaluation in accordance with the Council of the Inspectors
General on Integrity and Efficiency, “Quality Standards for Inspections.” Our
evaluation focused on Guam Police Department’s, Guam Fire Department’s and
Guam Homeland Security’s ability to meet the current and future needs of Guam.
We also gathered information from Maui County, HI police and fire departments.
We conducted our evaluation from October 2011 to February 2012. As part of our
review, we relied on the work of several internally generated reports and
assessments, as well as the Department of Defense’s Environmental Impact
Statement. We believe our work provides a reasonable basis for our conclusions
and recommendations.

Methodology
We interviewed GPD, GFD, and GHS officials and staff and officials from the
Public Auditor’s Office, military coordination officer, former GPD chief, and the
public safety advisor. In addition, we completed the following—

   •   reviewed applicable laws, regulations, policies, and other criteria;
   •   reviewed information from the GPD, GFD, and GHS Web sites,
       publications, and reports;
   •   reviewed various studies, assessment reports, and financial information
       prepared by GPD, GFD, and GHS;
   •   interviewed an official from the Department of Defense;
   •   attended the Oceana Regional Response Team meeting and training,
       Public Safety meeting, and Mass Care Task Force meeting; and
   •   interviewed officials from the Maui Police Department and the Maui Fire
       Department.




                                                                               16
                                                Attachment
Appendix 2: Sites Visited or
Contacted
            Guam Police Department
                   Island of Guam
            Police Department Headquarters
                    Guam Crime Lab
                    Hagatna Precinct
                    Dededo Precinct
               Tumon-Tamuning Precinct
                      Agat Precinct
              Guam Fire Department
                    Island of Guam
             Fire Department Headquarters
                  Dededo Fire Station
                 Astumbo Fire Station
                 Tamuning Fire Station
           Guam Public Works (GFD Vehicles)
            Guam Homeland Security
                    Island of Guam
            Guam Homeland Security Building
          U.S. Department of the Interior
                   Washington, DC
                 Office of Insular Affairs
                 Maui Public Safety
                        Maui, HI
          Maui Police Department Headquarters
           Maui Fire Department Headquarters




                                                       17
                                                                            Attachment
Appendix 3: Prior Office of Inspector
General Report
November 2008, “Tax Collection Activities, Government of Guam, Revitalized
Tax Collection and Enforcement Effort Needed.”
Report No. P-EV-GUA-0002-2009

Guam Department of Revenue and Tax has inadequate funding and staff, an
inability to hire and retain qualified tax enforcement officers, an ever-increasing
workload, and a reliance on manual processes and outdated equipment. As a
result, tax information is not processed timely, tax audits are not productive, no
efforts are made to identify non-filers, tax liabilities are not collected in a fair and
expeditious manner, and criminal prosecutions are almost non-existent. Although
the total amount of tax losses associated with these problems cannot be
determined, we estimate that at least $23.5 million is lost each year.




                                                                                      18
                                                                    Attachment
Appendix 4: Governor of Guam
Response
The Governor of Guam’s response to our draft report follows on page 20.




                                                                           19
  EDDIE BAZA CALVO                                                                                          RAYTENORlO
  Governor                                                                                               Lieutenant Governor




Kimberly Elmore
Assistant Inspector General for Audits, Inspections, and Evaluations
U.S. Department of the Interior
Office ofl nspector General
Mail Stop 4428
1849 C Street, NW
Washington, DC 20240

RE: OIG Report No. HI-EV-GUA-0002-2011

August 10, 2012

Hafa Adai Ms. Elmore:

The U.S. Department of Interior Office of the Inspector General (OIG) released its Draft Report-Evaluation of Guam
Public Safety Report No. HI-EV-GUA-0002-2011 to the Government of Guam on July 13, 2012. It recommends the
Government of Guam develop and implement a service delivery matrix, establish a continuous review process to
determine if the service delivery matrix goods are achieved, and identify public safety funding from local revenue sources.
The Government of Guam is pursuing these recommendations.

Like many jurisdictions within the United States, the Government of Guam is faced with austere financial challenges
where a shortage in manpower, operational safety vehicles, and safety gear is a familiar story. The Governor of Guam has
been addressing the financial crisis while simultaneously striving to improve services since the onset of the Calvo-Tenorio
Administration in January 2011. The Administration's goals and direction have remained consistent: fiscal responsibility,
quality service, and efficient operations.

The Government of Guam is working toward enacting a service delivery matrix and continuous review process.
Executive Order No. 2012- 10 Relative to creating the Governor 's performance-based management system executive
steering committee was signed on July 19, 2012. This executive order addresses the imp.lementation of performance-
based management systems with the goal of improving customer satisfaction in all government services. The Department
of Administration leads eight agencies in this pilot program and, while there currently are no public safety agencies
participating, the Administration plans to implement performance-based budgeting government wide.

The report also recommends that the Government of Guam identify local funding sources for public safety needs. The
Calvo-Tenorio Administration agrees with the OIG ; it is time to reexamine the level of service the citizenry of Guam
desires. Government-wide spending cuts are planned to take effect before the next fiscal year with funds saved to be used
to improve operations. I.n addition, the Administration facilitated Guam Fire Department' s (GFD) implementation of a
new ambulance billing system, enabling the Department to properly track and collect revenue for emergency medical
services. GFD hopes the new local funds will enable more training, equipment, and staff for the department by efficiently
collecting this new revenue.

The OIG overlooks important factors in its findings that calls its results into question. The report indicates that its purpose
is to examine Guam 's ability to prepare for the impact of the upcoming military build-up. The OIG references the United
States Navy 's Environmental Impact Statement (EIS), finalized in September 2010, to determine GPO's need to hire an
additional 117 officers. The Department of Defense has since made significant changes to its plan of action as the U.S.
and Japanese national governments adjusted the realignment road map to move only 4,500-5,000 Marines to Guam,

                                    Ricardo J. Bordallo Governor's Complex o A delup, Guam 96910
                                 Tel: (67 1) 472-893 1/6 o Fax: (671) 477-4826 o www.govem or.guam.gov
                                                                                                                   20
                                                                                                                     2 of4

                                                                                                     Attachment
substantially lower than the initial 8,600. The new troops are expected to bring only 1,300 family members with them as
opposed to the initial projection of 9,000 dependents. Therefore, the cited EIS is no longer an accurate gauge to determine
the increased service expected of Guam's public safety agencies. Supplemental studies are expected to be released
sometime in 2014 and a new record of decision is scheduled for release in 2015.

The OIG's research identifies unstable leadership at GFD. The Administration clarifies here that the OIG research was
conducted during a governance transition period. Although several individuals were selected as acting chiefs, only Fire
Chief Joey San Nicolas was officially appointed by the Governor and received legislative confirmation. GFD's
established leadership alleviates this concern and has generated additional revenue, maintained ten working ambulances,
six of which were provided in addition to a ladder truck, two medium rescue trucks and a rescue boat by the Department
oflnterior.

The OIG report highlights a shortage of manpower in the Guam Police Department (GPD) and GFD. GPD augments its
police force with the Civilian Volunteer Police Reserve (CVPR) and the Community Assisted Police Effort (CAPE)
volunteers. There are 205 individuals that supplement the service that GPO's sworn officers provide. Guam Public Law
31-211 enables the CVPR to be utilized as limited term appointees, reducing some of the strain placed on the workforce
due to military deployments. GPD identified funding and is in the process of hiring twelve new Police Officers and GFD
plans to hire at least fifteen new Fire Fighters by the end of 2012.

The findings indicate that GFD and GPD do not have master training plans. Guam Code Annotated Title 8 Chapter 5
Subsection 5.55 includes sworn GFD and GPD members as peace officers, for whom the Peace Officer Standards and
Training (POST) Commission is actively crafting standards under which all peace officers will be accountable. GFD and
GPD will be responsible for ensuring POST standards are attained in concert with a future POST Executive Director.

The Government of Guam understands that a point of comparison is a useful tool of analysis. While Guam and Maui
County share a similar population size and economic driver, their respective variables drastically contrast: 8.9% of Maui
County's population lives below the poverty line according to the U.S. Census Bureau versus 23% on Guam. The
difference in the two economies is further evident when considering the U.S. Census Bureau determined the average per
capita income in Maui County is $29,180 compared with Guam at approximately $15,000, roughly 50% less. The effect
of Guam's economic situation on government revenue underscores its relative financial capability to provide services.

The Federal government's failure to meet its obligations under the Compact of Free Association (COFA) places an
overwhelming financial burden on the Government of Guam. While the OIG identifies pressing issues and shortfalls of
the public safety agencies, it inexplicably ignores a glaring reality of the draining effect COFA citizens have on Guam's
finances that the OIG points out the very same public safety agencies are struggling to obtain.

United States Public Law 108-188 amends the COFA and appropriates $30,000,000, which is woefully inadequate for
grants to 'aid in defraying costs incurred' by jurisdictions impacted by COFA as a result of increased demands in
education, health, social, and public safety services. Since the Compact was signed in 1986, and later amended in 2003,
Guam has seen an influx of COFA citizens in its population. Roughly 94% of all COFA migrants reside in either Guam
or Hawaii, with Guam housing the largest percentage according to the U.S. Department of Commerce, Economics and
Statistics Administration, and U.S. Census Bureau report issued in 2008. 1




1
 Guam has the highest number ofCOFA migrants of 18,305. Hawaii has the second highest number ofCOFA migrants at 12,215,
distributed between five counties.




                                                                                                               21
                                                                                                                             3 of4

                                                                                                            Attachment
COF A citizens' adverse impact on Guam is evident in the substantial resources utilized by public safety agencies to serve
COFA residents. The three protective service agencies expended a combined total of$38,561,263 out of local funding to
protect COFA citizens between FY 2004 through FY 2011. It cost GFD $19,643,199.00 and GPD $18,831,812.00 to
ensure the safety of COFA citizens over the past eight years according to a January 2012 Bureau of Statistics and Plans
report to the Department of Interior. GFD spent $3,518,778 to serve COFA citizens in FY 2011, marking a 178%
increase from FY 2004. GPD faced a similar unsustainable burden by shouldering $3,076,213 in FY 2011, or a 143%
increase for police protective services for COFA citizens. The financial impact was absorbed by the local government,
thereby diverting funds that these departments could have used to hire more personnel, as well as acquire and maintain
equipment and vehicles. The failure to reimburse the Government of Guam for these costs has strained the general fund
and made it difficult to meet all the needs of Guam's residents.

The strain COFA citizens place on Guam's resources is further illustrated by their population within the Department of
Corrections (DOC) and the Department of Youth Affairs (DYA). While GFD and GPD are first responders, DOC and
DYA manage the byproduct of the services GFD and GPD render. DOC saw a 15% growth in COFA migrant population
in FY 20 11 from the previous year. Moreover, DOC expended a total of $20,481,706 in local funding for the housing of
COFA clients within the past two fiscal years (FY 2011 and FY 201 0). DOC spent $98.00 per day per day to house an
individual person, totaling $14,723,716 to house COFA clients in FY 2011. This is a 156% increase from the previous
year? Like DOC, DYA provided $2,108,766 in FY 2011 -a 257% increase from FY 2004- to service COFA citizens.

The Bureau of Statistics and Plans calculates the un-reimbursed COFA cost for the past eight fiscal years to be at least
$440.67 million. No government can sustain adequate services to any population with such an onerous financial burden
placed upon it without adequate appropriations to defray the costs associated with such an obligation. It is crucial and
long overdue to increase the current $30,000,000 appropriation, as jurisdictions impacted by COFA are exhausting
resources and compromising services. The dramatic increase in cost illustrates the accelerated impact public safety
agencies bear in order to respond to the demands placed on them by COFA. Given the economic constraints and
demographics of Guam's community, it is clear that if this trend of the Federal government's gross underfunding for costs
resulting from COFA citizens continues, the Government of Guam will remain confronted with mounting expenditures
that will result in the same lack of service the OIG ironically illustrates in the draft report.

The Administration is aware of the risks that public safety agencies' shortfalls pose to the island community, including
current and future servicemen. The Government of Guam is actively pursuing ideas to decrease government spending
while maintaining and improving services. The Administration has devoted the first year of their term to the development
of a comprehensive Public Safety Master Plan (PSMP), which is in its final draft stages. The PSMP's goal is to address
each public safety agency's inadequacies, personnel issues, reduce if not eliminate overtime and budget concerns, and
achieve mandates. The PSMP identifies cost-saving measures that, if implemented, would provide funds to maintain
equipment, training, and replace gear. GFD and GPD must hire civilians for administrative and technical positions to
appropriately assign sworn personnel to perform their intended role. The PSMP is the first step of many towards an
overall improvement of performance that the Calvo-Tenorio Administration is pursuing. The PSMP is the Government of
Guam's response that offers concrete solutions that will streamline public safety and improve inefficiencies within the
agencies.




2
  For FY 20 I 0, the Department of Corrections identified 873 intakes of citizens of the Freely Associated States (FAS) who were
incarcerated a total of58,755 client-days. For FY 2010, the Department of Corrections expended a total of$5,757,990 for the housing
ofFAS clients. Guam, Office ofthe Governor, Impact of the Compact of Free Association on Guam: FY 2004 through FY 201 I,
(Hagatna, 20 12) I I.




                                                                                                                       22
                                                                                                                 4 of4

                                                                                                 Attachment
In conclusion, the Government of Guam faces numerous issues but continues to operate and service the growing
population despite shortfalls. The public safety agencies on Guam, specifically GFD, GPD and GHS, are prime examples
of agencies in which shortfalls in government revenue have hindered progress and service quality. The OIG report and
the Public Safety Master Plan are long-term and stable recommendations that will undeniably improve agencies' abilities
to fulfill mandates, hire personnel, and maintain and procure much needed equipment. Although findings within the
report have excluded major factors that affect the island's resources, the OIG has highlighted areas and goals to work
towards. The Calvo-Tenorio Administration is committed to public safety and upholding its duty to the residents of
Guam.

Sincerely,




Acting Governor of Guam




                                                                                                           23
                                                                 Attachment
Appendix 5: Status of
Recommendations
Recommendation     Status                   Action Required
                            Provide OIA with additional information as to
                            how Executive Order 2012-10 will specifically
                            address the recommendation to develop a
      1          Unresolved service delivery matrix. Include target dates
                            for completion of a service delivery matrix for
                            GPD and GFD, as well as a responsible official
                            by November 15, 2012.
                            Provide OIA with additional information as to
                            how Executive Order 2012-10 will specifically
                            address the recommendation to establish a
      2          Unresolved continuous review process. Include target
                            dates for implementing a review process, as
                            well as a responsible official by November 15,
                            2012.
                            Provide OIA with additional information on
                            the level of funding that will be directed to the
      3          Unresolved
                            public safety agencies to improve operations
                            by November 15, 2012.




                                                                          24
                                                                           Attachment


                                    


            Report Fraud, Waste,                                      
            and Mismanagement
                                       
                  Fraud, waste, and mismanagement in
                  government concern    everyone: Office
                of Inspector General staff, Departmental
                 employees, and the general public. We
                    actively solicit allegations of any
                           and wasteful practices, fraud,
                inefficient
                     and mismanagement related to
               
                 Departmental or Insular Area programs
                                                         
                     and operations.  You can report
                    allegations to us  in several ways.
                                        
                                    
                                    
     By Mail:           U.S. Department of the Interior  
                        Office of Inspector General  
                        Mail Stop 4428 MIB  
                        1849 C Street, NW  
                        Washington, D.C. 20240  
      
     By Phone:          24-Hour Toll Free                               
                                                            800-424-5081
                        Washington Metro Area               202-208-5300
                                                                        
      
     By Fax:            703-487-5402
      
     By Internet:       www.doioig.gov
  
                                                                                   
